App. 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JORGE MENDOZA,
Plaintiff-Appellant,
v.
UBER TECHNOLOGIES,
INC.,
Defendant-Appellee.

No. 20-55567
D.C. No. 2:19-cv-09741FMO-JPR Central
District of California,
Los Angeles
ORDER
(Filed Jun. 25, 2020)

Before: GRABER, WARDLAW, and R. NELSON, Cir­
cuit Judges.
A review of the record demonstrates that this court
lacks jurisdiction over this appeal because the order
challenged in the appeal is not final or appealable. See
28 U.S.C. § 1291; Dees v. Billy, 394 F.3d 1290,1294 (9th
Cir. 2005) (district court order staying judicial proceed­
ings and compelling arbitration is not appealable).
Consequently, this appeal is dismissed for lack ofjuris­
diction.
DISMISSED.

App. 2
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JORGE MENDOZA,
Plaintiff,

) Case No. CV 19-9741) FMO(JPR)

)
ORDER ACCEPTING
v.
)
FINDINGS AND REC­
UBER TECHNOLOGIES > OMMENDATIONS OF
)
INC.,
U.S. MAGISTRATE
)
JUDGE
Defendant. )
) (Filed May 4, 2020)

The Court has reviewed the Complaint, records
on file, and Report and Recommendation of U.S. Mag­
istrate Judge. See 28 U.S.C. § 636. On April 10, 2020,
Plaintiff filed objections to the R. & R.; Defendant re­
sponded on April 27. Plaintiff’s objections mostly ei­
ther repeat arguments he made in his opposition to
the motion to compel arbitration or improperly raise
entirely new arguments. None of his objections under­
mine the reasoning of the R. & R.
Plaintiff first argues that his agreement with Uber
was a “contract of employment.” (See Objs. at 3-5.)
But the Magistrate Judge did not reach that issue
(see R. & R. at 9), and this Court sees no need to
either. Plaintiff then raises new arguments about why
he qualifies as a “worker” “engaged in interstate com­
merce” under the narrow exception to the Federal Ar­
bitration Act, 9 U.S.C. § 1, citing regulations pertaining
to other areas of law. (See Objs. at 5-7.) None of that

App. 3
undermines the authority cited by the Magistrate
Judge (and Defendants, see Resp. at 3-9) holding that
because Plaintiff neither crossed state lines nor trans­
ported goods in his work as an Uber driver, his busi­
ness did not involve interstate commerce. (See R. & R.
at 7-9.)
Plaintiff then proceeds to challenge - again, for
the first time - the delegation provision in his arbitra­
tion agreements with Uber, claiming that it’s uncon­
scionable. (Objs. at 8-12.) But the Ninth Circuit has
already rejected that argument as to essentially iden­
tical provisions, from Uber’s contracts of 2013 and
2014 as opposed to the 2014 and 2015 agreements at
issue here. See Mohamed v. Uber Techs., Inc., 848 F.3d
1201, 1207-08 (9th Cir. 2016) (as amended) (“Neither
delegation provision was unconscionable.”). Nothing
Plaintiff says in his Objections provides any reason for
this Court not to find itself bound by Mohamed; indeed,
he doesn’t even mention that case.
Finally, Plaintiff for the first time asks that the
Court allow him to conduct discovery into whether he
qualifies as a worker in interstate commerce. (Objs. at
12-14.) But he has not pointed to any facts that are
in dispute: he acknowledges that he has never trans­
ported anyone across state lines and does not transport
goods. (Id. at 5-8.) Moreover, this is not a class action,
so only facts pertaining to Plaintiff matter. No infor­
mation needs to be discovered to decide Defendant’s
motion.

App. 4
Having reviewed de novo those portions of the
R. & R. to which Objections have been filed, the Court
accepts the findings and recommendations of the Mag­
istrate Judge. It therefore is ORDERED that:
1. Defendant’s motion to compel arbitration and
for a stay is GRANTED.
2. No later than five days from the date of this
order, Defendant’s counsel must provide Plaintiff with
detailed written instructions on what he needs to do to
initiate the arbitration process. The instructions must
be accompanied by all the forms he needs to initiate
and complete the arbitration process. Defendant must
file proof of service of the arbitration instructions no
later than seven days from the date of this order.
3. This action is STAYED pending resolution of
the arbitration proceedings. The Clerk is directed to
administratively close the case. See Dees v. Billy, 394
F.3d 1290,1293-94 (9th Cir. 2005).
DATED: May 4, 2020

/s/
FERNANDO M. OLGUIN
U.S. DISTRICT JUDGE

App. 5
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JORGE MENDOZA,
Plaintiff,

) Case No. CV 19-9741) FMO(JPR)
)
)
)
)
)

REPORT AND
RECOMMENDATION
UBER TECHNOLOGIES
OF U.S. MAGISTRATE
INC.,
JUDGE
Defendant, j (Filed Mar. 25, 2020)
v.

This Report and Recommendation is submitted to
the Honorable Fernando M. Olguin, U.S. District
Judge, under 28 U.S.C. § 636 and General Order 05-07
of the U.S. District Court for the Central District of
California.
PROCEEDINGS
On November 13,2019, Plaintiff filed a civil-rights
Complaint alleging due process violations under the
14th Amendment, citing 42 U.S.C. § 1983, and unfair
business practices under California law. (Compl. at 1,
3-7j 16-19.) His claims arise from Defendant’s termina­
tion of his Uber driver account, allegedly without no­
tice, a hearing, or any investigation, based on a rider’s
complaint that he was intoxicated. (Id. at 2-3.)
Defendant moved to compel arbitration and for a
stay on December 27, 2019. Plaintiff opposed the mo­
tion on January 17, 2020, and Defendant filed a Reply
on February 3.

App. 6
For the reasons discussed below, the undersigned
recommends that the District Judge grant Defendant’s
motion and stay this action pending arbitration.

BACKGROUND
Uber offers a smart-phone application for drivers
to connect with riders looking for transportation. (Mot.,
Rosenthal Decl. 1 3.) Drivers must create an account
with a unique username and password to use Uber’s
services. (Id. 'll 6.) To access requests from prospective
riders on the Uber app, drivers must first electronically
accept a service agreement with an Uber subsidiary,
such as Rasier, LLC. (Id. 1 5; Mot., Fishman Decl.
'll 4.)After creating an account, a driver is required to
select, “YES, I AGREE” to the service agreement, con­
firming that he has reviewed and agrees to its terms.
(Rosenthal Deck 'll 7 & Exs. A, B.) Upon clicking “YES,
I AGREE” once, he must confirm acceptance a second
time by clicking it again.1 (Id. H 8 & Exs. C, D.)
Plaintiff signed up to use the Uber app as a driver.
(Compl. 'll 6; Rosenthal Deck f 5.) He accepted Rasier’s
November 10, 2014 online service agreement on De­
cember 4,2014, and its December 11,2015 technologyservices agreement on December 11, 2015.(Fishman
Deck H 5 & Exs. A, B.)
1 These features distinguish the service agreement here, and
its arbitration provision, from the one at issue in Wilson v.
Huuuge, Inc., 944 F.3d 1212, 1221 (9th Cir. 2019), in which the
court refused to compel arbitration because a user of the Huuuge
app never had to “affirmatively assent” to any terms of use.

App. 7
The December 2015 agreement contained an arbi­
tration provision prominently highlighted on the first
page, stating in relevant part:
IMPORTANT: PLEASE NOTE THAT TO
USE THE UBER SERVICES, YOU MUST
AGREE TO THE TERMS AND CONDI­
TIONS SET FORTH BELOW. PLEASE
REVIEW THE ARBITRATION PROVI­
SION SET FORTH BELOW CAREFULLY,
AS IT WILL REQUIRE YOU TO RE­
SOLVE DISPUTES WITH THE COM­
PANY ON AN INDIVIDUAL BASIS,
EXCEPT AS PROVIDED IN SECTION
15.3, THROUGH FINAL AND BINDING
ARBITRATION UNLESS YOU CHOOSE
TO OPT OUT OF THE ARBITRATION
PROVISION. BY VIRTUE OF YOUR
ELECTRONIC EXECUTION OF THIS
AGREEMENT, YOU WILL BE AC­
KNOWLEDGING THAT YOU HAVE
READ AND UNDERSTOOD ALL OF THE
TERMS OF THIS AGREEMENT (IN­
CLUDING THE ARBITRATION PROVI­
SION) AND HAVE TAKEN TIME TO
CONSIDER THE CONSEQUENCES OF
THIS IMPORTANT BUSINESS DECI­
SION. IF YOU DO NOT WISH TO BE SUB­
JECT TO ARBITRATION, YOU MAY
OPT OUT OF THE ARBITRATION PRO­
VISION BY FOLLOWING THE IN­
STRUCTIONS PROVIDED IN THE
ARBITRATION PROVISION BELOW.

App. 8
{Id., Ex. B at 1 (emphasis in original).) Plaintiff didn’t
opt out of the arbitration provision {id. 1 6) and does
not contend otherwise.2
Section 15.3 states in large print:
IMPORTANT: This Arbitration Provision will
require you to resolve any claim that you may
have against the Company or Uber on an in­
dividual basis, except as provided below, pur­
suant to the terms of the Agreement unless
you choose to opt out of the Arbitration Provi­
sion.
{Id., Ex. B at 16.) Under a subheading “How This Arbi­
tration Provision Applies,” section 15.3 requires a
driver to arbitrate disputes, stating as follows:
[T]his Arbitration Provision is intended
to apply to the resolution of disputes
that otherwise would be resolved in a
court of law or before any forum other
than arbitration, with the exception of
proceedings that must be exhausted un­
der applicable law before pursuing a
claim in a court of law or in any forum
other than arbitration. Except as it oth­
erwise provides, this Arbitration Provi­
sion requires all such disputes to be
resolved only by an arbitrator through
final and binding arbitration on an

2 The November 2014 agreement included a similar provi­
sion (Fishman Decl., Ex. A at 1), as to which Plaintiff also didn’t
opt out {id. 6).

App. 9
individual basis only and not by way of
court or jury trial....
(Id. at 18 (emphasis in original).) Two paragraphs
later, the section states that it applies to any dispute
concerning “termination,” civil-rights claims, or “state
statutes, if any, addressing the same or similar subject
matters, and all other similar federal and state statu­
tory and common law claims.” (Id.) The agreement also
provides, in a so-called “delegation clause,” Grice v.
Uber Techs., Inc., No. CV 18-2995 PSG (GJSx), 2020
WL 497487, at *5 (C.D. Cal. Jan. 7, 2020), that “[a]ll
such matters” as the “interpretation or application” of
the arbitration provision, “including the enforceability,
revocability, or validity” of it, are to be “decided by an
Arbitrator.” (Fishman Decl., Ex. B at 18.)
DISCUSSION
Plaintiff contends that he is exempt from the Fed­
eral Arbitration Act, and thus Defendant’s arbitration
provision, because he is a “transportation worker” en­
gaged in “interstate commerce.” (Opp’n at 2-4.) He ar­
gues that dropping off or picking up passengers at Los
Angeles International Airport, which he did, consti­
tutes interstate commerce. (Id. at 3.)
I.

Applicable Law

Congress enacted the Federal Arbitration Act in
1925 in response to hostility from courts to the enforce­
ment of arbitration agreements. Circuit City Stores,
Inc. v. Adams, 532 U.S. 105, 111 (2001); see also AT&T

App. 10
Mobility LLC v. Concepcion, 563 U.S. 333, 344 (2011)
(“The ‘principal purpose’ of the FAA is to ‘ensurfe] that
private arbitration agreements are enforced according
to their terms.’” (citation omitted and alteration in
original)). The FAA compels judicial enforcement of a
wide range of written arbitration agreements. Circuit
City, 532 U.S. at 111. It extends to all contracts “evi­
dencing a transaction involving commerce,” 9 U.S.C.
§ 2, but exempts “contracts of employment of seamen,
railroad employees, or any other class of workers en­
gaged in foreign or interstate commerce,” id. § 1.
Section 4 of the FAA allows “[a] party aggrieved by
the alleged failure, neglect, or refusal of another to ar­
bitrate under a written agreement for arbitration [to]
petition any United States district court... for an or­
der directing that such arbitration proceed in the man­
ner provided for in such agreement.” “Because the FAA
mandates that ‘district courts shall direct the parties
to proceed to arbitration on issues as to which an arbi­
tration agreement has been signed,’ ” courts must de­
termine “(1) whether a valid agreement to arbitrate
exists, and if it does, (2) whether the agreement encom­
passes the dispute at issue.” Grice, 2020 WL 497487, at
*4 (quoting Cox v. Ocean View Hotel Corp., 533 F.3d
1114,1119 (9th Cir. 2008) (emphasis in original)).
To decide whether a valid arbitration agreement
exists, a court applies “ordinary state-law principles
that govern the formation of contracts.” First Options
of Chi., Inc. v. Kaplan, 514 U.S. 938, 944 (1995). In Cal­
ifornia, “[e]very contract requires mutual assent or
consent, .. . and ordinarily one who signs an

App. 11
instrument which on its face is a contract is deemed to
assent to all its terms.” Marin Storage & Trucking, Inc.
v. Benco Contracting & Eng’g, Inc., 89 Cal. App. 4th
1042,1049 (2001) (citations omitted).
Doubts about the scope of arbitration must be re­
solved in favor of it. Grice, 2020 WL 497487, at *4 (cit­
ing Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 24-25 (1983)). When an arbitration
agreement exists, the FAA requires courts to compel
arbitration “in accordance with the terms of the agree­
ment.” 9 U.S.C. § 4; see also Concepcion, 563 U.S. at 344.
II.

Analysis

Plaintiff does not dispute that he assented to the
December 2015 service agreement, including the arbi­
tration provision. He claims only that the provision
does not apply to him because he was engaged in inter­
state commerce, citing § 1 of the FAA.
A court must “decide for itself” whether § l’s ex­
emption applies before ordering arbitration. New
Prime Inc. v. Oliveira, 139 S. Ct. 532, 537 (2019). This
is true even when the contract at issue contains a del­
egation clause, giving an arbitrator authority to decide
whether the parties’ particular dispute is subject to ar­
bitration. Grice, 2020 WL 497487, at *5 (citing New
Prime, 139 S. Ct. at 537). A plaintiff has the burden of
proving the exemption applies. Id.
Plaintiff contends he was engaged in interstate
commerce because he “dropped off or picked up many

App. 12
passengers at Los Angeles International Airport in the
State of California several times.” (Opp’n at 3.) For the
§ 1 exemption to apply, he must demonstrate that his
contract with Uber was a “contract of employment”
and, because he is not a “seaman” or “railroad worker,”
that he falls within § l’s residual clause: “any other
class of workers engaged in foreign or interstate com­
merce.” See Grice, 2020 WL 497487, at *5. If he cannot
show both, arbitration should be compelled. See id. at
*9.
Because the § 1 exemption is narrow, it exempts
from the FAA “only ‘contracts of employment of trans­
portation workers.’ ” Id. at *5 (quoting Circuit City, 532
U.S. at 119). Transportation workers include those “ac­
tually engaged in the movement of goods in interstate
commerce.” Circuit City, 532 U.S. at 112 (citation omit­
ted) (surveying court-of-appeal decisions). But see
Singh v. Uber Techs. Inc., 939 F.3d 210, 221-26 (3d Cir.
2019) (reviewing cases and rejecting transport-ofgoods requirement). The most obvious such example is
someone who directly transports goods interstate by,
for instance, delivering packages from one state to an­
other. Veliz v. Cintas Corp., No. C 03-1180 SBA., 2004
WL 2452851, at *3 (N.D. Cal. Apr. 5,2004), modified on
recons, by 2005 WL 1048699 (N.D. Cal. May 4, 2005).
By his own admission, Plaintiff did not cross state
lines. (See Opp’n, Mendoza Deck, Ex. A.) His average
trip distance was 6.4 miles, with a duration of 18.14
minutes. (Reply, Contreras Decl. ^1 6.) Wholly intra­
state transportation offered by taxi companies is
purely local activity, even when that transportation is

App. 13
part of a broader, interstate journey. See United States
v. Yellow Cab Co., 332 U.S. 218, 230-32 (1947) (using
taxicabs for transport to railroad stations was too tan­
gential to interstate commerce to fall within Sherman
Act), overruled on other grounds by Copperweld Corp.
v. Independence Tube Corp., 467 U.S. 752 (1984). More
recently, numerous courts have found that rides to and
from the airport do not constitute interstate commerce,
particularly when no goods are involved. See, e.g.,
Grice, 2020 WL 497487, at *8 (finding persuasive cases
holding that drivers who transport people locally do
not fall within § 1 exemption); Scaccia v. Uber Techs.,
Inc., No. 3:18-cv-00418, 2019 WL 2476811, at *4 (S.D.
Ohio June 13,2019) (former Uber driver not in class of
workers engaged in interstate commerce even though
he transported passengers across state lines because
no transport of goods), accepted by 2019 WL 4674333
(S.D. Ohio Sept. 25, 2019), appeal filed, No. 19-4062
(6th Cir. 2019); Gray v. Uber, Inc., No. 8:18-cv-3093-T30SPF, 2019 WL 1785094, at *2 (M.D. Fla. Apr. 10,
2019) (denying recons.) (“Plaintiff did not argue or
demonstrate that his position with Uber required him
to transport goods in interstate commerce.”), appeal
dismissed, No. 19-11576- F, 2019 WL 3408912 (11th
Cir. June 18, 2019).
Because Plaintiff’s work as an Uber driver did not
involve crossing state lines or transporting goods, he
does not fit within the § 1 exemption for a transporta­
tion worker who is “engaged in . . . interstate com­
merce.” Cf. Singh, 939 F.3d at 226 (remanding for
determination of whether Uber driver engaged in

App. 14
interstate commerce when his submissions showed
that he “frequently transported passengers on high­
way across state lines”)-3 Thus, his resistance to arbi­
tration fails regardless of whether his agreement with
Uber was a “contract of employment.” See Grice, 2020
WL 497487, at *9. And because the arbitration provi­
sion here contains a delegation clause, which Plaintiff
has not specifically challenged, it is up to the arbitrator
to decide whether his particular dispute falls within
the scope of the provision. Rent-A-Center, West, Inc. v.
Jackson, 561 U.S. 63, 72-73 (2010).
RECOMMENDATION
It therefore is recommended that the District
Judge accept this Report and Recommendation, grant

3 Similarly, Uber Techs., Inc. v. Patel, No. CPF-17-515894
(S.F. Super. Ct. Nov. 26, 2019), cited by Plaintiff (Opp’n at 3) and
discussed in a recent news article, see Joel Rosenblatt, Uber Driv­
ers Who Make Airport Runs Get a Boost in Pay Fight, Bloomberg
Law, Daily Labor Report, Nov. 26, 2019, does not support Plain­
tiffs position. There, the court simply granted a discovery request
“to develop facts relevant to the extent to which Uber drivers en­
gage in interstate commerce”; it did not decide the issue. Order
Granting Labor Comm’r’s Disc. Req., Patel, No. CPF-17-515894.

App. 15
Defendant’s Motion to Compel Arbitration and Stay
Action, and order the case stayed pending arbitration.
DATED: March 25,2020
/s/ Jean Rosenbluth
JEAN ROSENBLUTH
U.S. MAGISTRATE JUDGE

App. 16
JORGE MENDOZA
15540 VANOWEN ST #113
VAN NUYS, CA 91406
In pro per
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JORGE MENDOZA,
Plaintiff,

Case No.
CV19-09741-FMO-JPR

(1) DEPRIVATION OF
RIGHTS UNDER
UBER TECHNOLOGIES 42 U.S.C. § 1983;
INC,
(2) VIOLATION OF
Defendant
XIV AMENDMENT
OF THE
CONSTITUTION
vs.

(3) UNFAIR BUSI­
NESS PRACTICES
[JURY TRIAL
DEMANDED]
Conies Now Plaintiff JORGE MENDOZA, who
hereby brings against UBER TECHNOLOGIES INC,
This complaint is based on the following arguments, all
exhibits attached hereto if there is one, and any other
evidence wish this Court may wish to consider in the
Discovery process.

App. 17
PARTIES
1. Plaintiff is an individual California resident
former Driver of Uber Technologies for 4 years
(11/2014-12/2018)
2. Defendant Uber Technologies Inc is a Califor­
nia Corporation located on 1455 MARKET ST 4TH FL
SAN FRANCISCO CA 94103 with CT Corporation
System as Agent of process located on 818 SEVENTH
STREET STE 930, LOS ANGELES, CA 90017, acting
also as a state actor.
JURISDICTION AND VENUE
3. The Court has subject matter jurisdiction over the
action pursuant to XIV Amendment of the Constitu­
tion of the United States Of America for violations of
the Due Process protected by the highest statute of law
in America.
4. Pursuant to supplemental jurisdiction, and at­
tendant and related cause of action, ‘ arising from the
same nucleus of operative facts and arising out of the
same transaction, is also brought under California
Law
5. Venue is proper in this court pursuant to 28 USC
Section 1391(b) and is founded on the fact that the sub­
stantial part of the events or omissions giving rise to
the claim occurred in this district.

App. 18
FACTUAL ALLEGATIONS
6. Plaintiff worked for 4 years as Uber Taxi Driver for
Defendant.
7. Plaintiff had always best conduct ever and as a re­
sult of that he had maintained the highest rating and
obtained very good reputation with Defendant UBER
Technologies Inc.
8. On December 8, 2018 Defendant Uber Technolo­
gies inc informs Plaintiff that a rider claimed Plaintiff
was intoxicated and proceed to suspend Plaintiff.
9. Around that time Plaintiff told Defendant Uber
that he can prove that the claim was 100% false and to
prove that asseveration would submit alcohol test to
Defendant’s office. Plaintiff also asked Uber if the rider
felt that way why he/she did not stop the ride and ask
to get out and call 911.
10. Defendant Uber Technologies Inc never accepted
the evidence against the false claim, they did proceed
to deactivate the account of Plaintiff without any fur­
ther investigation. This caused Plaintiff damages,
stress and innumerable problems that will be exposed
in the Discovery process.

App. 19
I.

FIRST CAUSE OF ACTION: VIOLATION
OF THE XIV AMENDMENT OF THE AMER­
ICAN CONSTITUTION (DUE PROCESS)
(On behalf of Plaintiff and against all de­
fendants)

All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they re­
side. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law, nor deny to any person within its ju­
risdiction the equal protection of the laws.
11. Plaintiff re-pleads and incorporates by reference,
as if fully set forth again herein, the allegations con­
tained in all prior paragraphs of this complaint.
12. Under the XIV amendment of the Constitution
“No person . . . nor be deprived of life, liberty, or prop­
erty, without due process of law..”
13. However Defendant deprived Plaintiff of this
only property which was his contract with defendant,
without any further investigation or minimum reason­
able compulsory process. As we know a fundamental
shift in the concept ofproperty occurred with recog­
nition of society’s growing economic reliance on gov­
ernment benefits, employment, and contracts.

App. 20
14. They terminated the agreement and deactivated
the account leaving Plaintiff out of the Uber system
without hearing or at least reviewing the evidence
Plaintiff had.
15. “Procedural Due Process.- SECTION 1. All
persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and the State wherein they reside. No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.”
15.1. Due process requires that the procedures by
which laws are applied must be evenhanded, so that
individuals are not subjected to the arbitrary exercise
of government power.
15.2. Exactly what procedures are needed to sat­
isfy due process, however, will vary depending on the
circumstances and subject matter involved. A basic
threshold issue respecting whether due process is sat­
isfied is whether the government conduct being exam­
ined is a part of a criminal or civil proceeding. 15.3. The
appropriate framework for assessing procedural rules
in the field of criminal law is determining whether the
procedure is offensive to the concept of fundamental
fairness.
15.4. In civil contexts, however, a balancing test is
used that evaluates the government’s chosen

App. 21
procedure with respect to the private interest affected,
the risk of erroneous deprivation of that interest under
the chosen procedure, and the government interest at
stake.
15.5. Non-Judicial Proceedings.—A court pro­
ceeding is not a requisite of due process. Administra­
tive and executive proceedings are not judicial, yet
they may satisfy the Due Process Clause.
15.6 The Requirements of Due Process.—Al­
though due process tolerates variances in procedure
“appropriate to the nature of the case,” it is nonethe­
less possible to identify its core goals and require­
ments. First, “Procedural due process rules are meant
to protect persons not from the deprivation, but from
the mistaken or unjustified deprivation of life, liberty,
or property.” Thus, the required elements of due pro­
cess are those that “minimize substantively unfair or
mistaken deprivations” by enabling persons to contest
the basis upon which a state proposes to deprive them
of protected interests.
15.7 The core of these requirements is: (1) notice
and a (2) hearing before an (3) impartial tribunal.
Due process may also require an (4) opportunity for
confrontation and (5) cross-examination, and for
(6) discovery: that a decision be made based on the
record, and that a party be allowed to be represented
by counsel.

App. 22
(1) Notice.
Mullane v. Central Hanover Bank & Trust Co..
339 U.S. 306. 314 (1950). See also Richards v. Jef­
ferson Countv. 517 U.S. 793 (1996)
“An elementary and fundamental requirement of due
process in any proceeding which is to be accorded final­
ity is notice reasonably calculated, under all the cir­
cumstances, to apprise interested parties of the
pendency of the action and afford them an opportunity
to present their objections.” This may include an obli­
gation, upon learning that an attempt at notice has
failed, to take “reasonable followup measures” that
may be available.
(1.2) In addition, the notice must be sufficient to en­
able the recipient to determine what is being proposed
and what he must do to prevent the deprivation of his
interest. Goldberg v. Kelly. 397 U.S. 254. 267-68
(1970)
(1.3) Ordinarily, service of the notice (Armstrong
v. Manzo. 380 U.S. 545. 550 (1965): Robinson v.
Hanrahan. 409 U.S. 38 (1974): Greene v. Lindsex.
456 U.S. 444 (1982).) must be reasonably structured
to assure that the person to whom it is directed re­
ceives it. Such notice, however, need not describe the
legal procedures necessary to protect one’s interest if
such procedures are otherwise set out in published,
generally available public sources.

App. 23
(2) Hearing.
Mathews v. Eldridge. 424 U.S. 319. 333 (1976).
“Parties whose rights are to he affected are enti­
tled to be heard.” Baldwin v. Hale. 68 U.S. (1
Wall.) 223. 233 (1863).
“Some form of hearing is required before an individual
is finally deprived of a property [or liberty] interest.”
This right is a “basic aspect of the duty of government
to follow a fair process of decision making when it acts
to deprive a person of his possessions. The purpose of
this requirement is not only to ensure abstract fair
play to the individual. Its purpose, more particularly,
is to protect his use and possession of property from
arbitrary encroachment. . . .” Thus, the notice of hear­
ing and the opportunity to be heard “must be granted
at a meaningful time and in a meaningful manner.”
(3) Impartial Tribunal.
Goldbere v. Kelly. 397 U.S. 254. 271 (1970)
Just as in criminal and quasi-criminal cases, an impar­
tial decision maker is an essential right in civil pro­
ceedings as well. “The neutrality requirement helps to
guarantee that life, liberty, or property will not be
taken on the basis of an erroneous or distorted concep­
tion of the facts or the law. ... At the same time, it pre­
serves both the appearance and reality of fairness . . .
by ensuring that no person will be deprived of his in­
terests in the absence of a proceeding in which he may

App. 24
present his case with assurance that the arbiter is not
predisposed to find against him.”
(4) Confrontation and Cross-Examination.
Goldberg v. Kelly. 397 U.S. 254.269 (1970). See also
ICC v. Louisville & Nashville R.R.. 227 U.S. 88. 9394 (1913). Cf. .<£ 7(c) of the Administrative Proce­
dure Act. 5 U.S.C. $ 556(d).
“In almost every setting where important decisions
turn on questions of fact, due process requires an op­
portunity to confront and cross-examine adverse wit­
nesses.” Where the “evidence consists of the testimony
of individuals whose memory might be faulty or who,
in fact, might be perjurers or persons motivated by
malice, vindictiveness, intolerance, prejudice, or jeal­
ousy,” the individual’s right to show that it is untrue
depends on the rights of confrontation and crossexamination. “This Court has been zealous to protect
these rights from erosion. It has spoken out not only in
criminal cases,. . . but also in all types of cases where
administrative . . . actions were under scrutiny.”
(5) Discovery.
Greene v. McElrov, 360 U.S. 474.496 (1959). quoted
with approval in Goldberg v. Kelly. 397 U.S. 254.
270 (1970).
The Court has never directly confronted this issue, but
in one case it did observe in dictum that “where gov­
ernmental action seriously injures an individual, and

App. 25
the reasonableness of the action depends on fact find­
ings, the evidence used to prove the Government’s case
must be disclosed to the individual so that he has an
opportunity to show that it is untrue.”
Some federal agencies have adopted discovery rules
modeled on the Federal Rules of Civil Procedure, and
the Administrative Conference has recommended that
all do so. There appear to be no cases, however, holding
they must, and there is some authority that they can­
not absent congressional authorization.
(6) Decision on the Record.
The exclusiveness of the record is fundamental
in administrative law. See § 7(d) of the Adminis­
trative Procedure Act. 5 U.S.C. § 556(e). However,
one must show not only that the agency used ex
parte evidence but that he was prejudiced
thereby. Market Street R.R. v. Railroad Comm’n.
324 U.S. 548 (1945) (agency decision supported bv
evidence in record, its decision sustained, disre­
garding ex parte evidence).
Goldberg v. Kelly. 397 U.S. 254. 271 (1970) (cita­
tions omitted).
Although this issue arises principally in the adminis­
trative law area, it applies generally. “The decision
maker’s conclusion . . . must rest solely on the legal
rules and evidence adduced at the hearing. To demon­
strate compliance with this elementary requirement,
the decisionmaker should state the reasons for his

App. 26
determination and indicate the evidence he relied on,
though his statement need not amount to a full opinion
or even formal findings of fact and conclusions of law.”
16. Why Defendant needs to respect the Due Pro­
cess of Law protected by the Constitution of the
United States?
A) Defendant is not immune to the application of
the Constitution, specifically to due process.
B) They are not immune to the application to the
Constitution because they are state regu­
lated organization for public safety.
C) Also they are under Judicial Intervention in
regards to a Public Safety.
D) Public Safety is a public policy to protect pas­
sengers from danger.
E) In the case of Transportation Network Com­
pany (TNC) as Uber, Lyft, etc they are strictly
regulated by the state delegating on them
the power of punishing drivers that are
Driving Under The Influence, becoming in
this respect state agency to public safety.
F) They exercise their power by making policing
decisions enforcing public safety rules, and
punishing drivers that drive under the in­
fluence of drugs or alcohol.
G) That procedure is called Zero Tolerance and is
a state regulated process that delegates on
TNC companies power to enforce rules and
protect public.

App. 27
H) The State Decision 13-09-045 Rulemaking
12-12-011 enacted a legal procedure for that,
(see point 16)
I)

The issue is that Defendant did not follow the
legal procedure and did not respect due pro­
cess.

J)

Defendant applied a sanction on Plaintiff act­
ing under the color of the law, because they
wanted to exercise their delegated power from
Zero Tolerance state regulation. However,
they exceeded that power delegated by the
state.

K) In order for an organization to be seen as gov­
ernmental, private companies must be a state
actor, meaning an organization that exercises
“powers traditionally exclusive to the state”,
defined from the case Jackson v. Metropolitan
Edison Co. and the action must have been
originally and solely performed by the govern­
ment (Rendell-Baker v. Kohn, Evans v. New­
ton).
L) In conclusion;
a)

Defendant is a state actor because:
(1) Public Safety is a power traditionally
exclusive to state
(2) The state has delegated on TNC com­
panies the power to enforce public
safety rules (see Decision 13-09-045
September 19, 2013)
(3) Therefore, Defendant became a state
actor in regards to public safety

App. 28
(4) As a state actor Defendant needs to ob­
serve due process established in the state
regulation
(5) In this case, Defendant deprived Plaintiff
of his contract which is considered prop­
erty without observing due process.
16. The Decision 13-09-045 establishes a legal
procedure for TNC companies. The Decision 13-09045 September 19, 2013 establishes a legal procedure
that Defendant did not respect. It is in the section
called “Safety Requirements” and prescribes that:
“Promptly after a zero-toler­
ance complaint is filed, the
TNC shall suspend the driver
for further investigation”
Safety Requirements
“d) TNCs shall institute a zero tolerance in­
toxicating substance policy with respect to
drivers as follows: 1. The TNC shall include on
its website, mobile application and riders’
receipts, notice/information on the TNC’s
zero-tolerance 39 TNCs must make their cer­
tificate of insurance public and the Commis­
sion will put this certificate on its website.
R.12-12-011 COM/MPl/avs - 27 - policy and
the methods to report a driver whom the rider
reasonably suspects was under the influence
of drugs or alcohol during the course of the
ride. 2. The website and mobile application
must include a phone number or in-app call

App. 29
function and email address to contact to re­
port the zero-tolerance complaint. 3.
Promptly after a zero-tolerance com­
plaint is filed, the TNC shall suspend the
driver for further investigation. 4. The
website and mobile application must also in­
clude the phone number and email address of
the Commission’s Passenger Section: 1-800894-9444 and Cl intake@cpuc.ca.gov.”
16.1. Further Investigation meaning.
Interpretation of the phrase “Further Investiga­
tion. The U.S. Supreme Court stated: “We begin
with the familiar canon of statutory construction
that the starting point for interpreting a statute is
the language of the statute itself. Absent a clearly
expressed legislative intention to the contrary,
that language must ordinarily be regarded as con­
clusive.:” Consumer Product Safety Commission et
al. v. GTE Sylvania, Inc. et al.,447 U.S. 102 (1980).
“Mil interpreting a statute a court should always
turn to one cardinal canon before all others.. . .
[Clourts must presume that a legislature says in a
statute what it means and means in a statute
what it says there.” Connecticut Nat’l Bank v. Ger­
main, 112 S. Ct. 1146, 1149 (1992). Indeed, “when
the words of a statute are unambiguous, then, this
first canon is also the last: ‘judicial inquiry is com­
plete!” 503 U.S. 249,254.
16.2. What is FURTHER?
Further is a comparative form of far. It is also
a verb.
1. Adverb. Further means to a greater ex­
tent or degree.

App. 30
Inflation is below 5% and set to fall further.
The rebellion is expected to further dam­
age the country’s image.
2. Adverb. If you go or get further with
something, or take something further, you
make some progress.
They lacked the scientific personnel to de­
velop the technical apparatus much further.
3. Adverb. If someone goes further in a
discussion, they make a more extreme state­
ment or deal with a point more thoroughly. To
have a better comparison, we need to go fur­
ther and address such issues as repairs and
insurance.
4. Adverb. Further means a greater dis­
tance than before or than something else.
People are living further away from their
jobs. He came to a halt at a crossroads fifty
yards further on.
5. Adverb. Further is used in expres­
sions such as ‘further back’ and ‘further
ahead’ to refer to a point in time that is earlier
or later than the time you are talking about.
Looking still further ahead, by the end of
the next century world population is expected
to be about ten billion.
6. Adjective. A further thing, number of
things, or amount of something is an addi­
tional thing, number of things, or amount.

App. 31
Further evidence of slowing economic growth
is likely to emerge this week.
7. Transitive verb. If you further something,
you help it to progress, to be successful, or to be
achieved.Education needn’t only be about further­
ing your career.
COBUILD Advanced English Dictionary.
HarperCollins Publishers
16.3. What is INVESTIGATION?
A term that means to examine and to look at
carefully, discover the factor make a legal inquiry.
TLD Example: Police conducted a thorough inves­
tigation of the accusations of wrongdoing made
against the council member, but they could not file
charges because they were unable to find any cor­
roborating evidence. (Black’s Law Dictionary)
16.4. What is FURTHER INVESTIGATION?
Further Investigation obviously is a proce­
dure that needs to be followed reasonably after a
reported incident to make a decision. The investi­
gation is done to apply the right sanction or dis­
charge the reported person.
M) Judicial Intervention. Defendant reached an
agreement before Court in a class action.
The Court imposed continuous Jurisdiction
over Defendant to protect the interests of part
of the public.
N) When a private entity fulfills state functions
supervised by the State (Court) then it be­
comes an “actor state” and when it becomes an
actor state it must comply with the

App. 32
Constitution in all its magnitude, including
the 5th and 14th amendments that define the
due process.
17. State action doctrine is a legal principle that
the Fourteenth Amendment applies only to state and
local governments, not to private entities. Under state
action doctrine, private parties outside of government
do not have to comply with procedural or substantive
due process.
18. However, there are two exceptions to this rule for:
public functions and Entanglement. These exceptions
hold that private corporations performing government
functions, such as handling law enforcement, would be
subject to the Fourteenth Amendment.
19. Adding to the previous point, in some circum­
stances, a private entity can be a state actor for consti­
tutional purposes. Specifically,” ‘The Supreme Court
has articulated four tests for determining whether a
private party’s actions amount to state action: (1) the
public function test; (2) the joint action test; (3) the
state compulsion test; and (4) the governmental nexus
test.’” Tsao v. Desert Palace, Inc., 698 F.3d 1128, 1140
(9th Cir. 2012) (alteration adopted) (quoting Franklin
v. Fox, 312 F.3d 423,444-45

App. 33
II.

SECOND CAUSE OF ACTION: DEPRIVA­
TION OF RIGHTS

20. 42 U.S. Code § 1983.Civil action for depriva­
tion of rights. Every person who, under color of any
statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia, subjects,
or causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or immuni­
ties secured by the Constitution and laws, shall be lia­
ble to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except
that in any action brought against a judicial officer for
an act or omission taken in such officer’s judicial ca­
pacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress-applicable exclusively to the District of
Columbia shall be considered to be a statute of the Dis­
trict of Columbia.
21. Defendant deprived Plaintiff of his contract
which is considered property without observing due
process. This letter I received from defendant: “Thanks
for taking the time writing in to us about your account,
Jorge. We appreciate your eagerness to get back on the
road. However, your account has been deactivated.
No deactivation decision is taken lightly or without in­
vestigation. As such, certain deactivation decisions, es­
pecially those related to zero-tolerance violations, are
not eligible for appeal.”

App. 34
III. THIRD CAUSE OF ACTION:
BUSINESS PRACTICES

UNFAIR

22. Defendant deactivated my account permanently
on December, 2018 without any investigation and in
violation of my Constitutional rights to due process.
23. Defendant sent me a letter for permanent deacti­
vation of my account:
“Thanks for taking the time writing in to us about
your account, Jorge. We appreciate your eagerness
to get back on the road. However, your account has
been deactivated. No deactivation decision is
taken lightly or without investigation. As such,
certain deactivation decisions, especially those re­
lated to zero-tolerance violations, are not eligible
for appeal.”
“No process is 100 percent perfect and the range
of issues that could lead to deactivation varies. For
a decision as important as permanent deactiva­
tion, we want to make sure that drivers have a
clear channel to engage with Uber and, where ap­
propriate, get back on the road quickly.”
24. In the letter they say that “No deactivation deci­
sion is taken lightly or without investigation” which is
totally false because they have rejected the submission
of my evidence alleging that I was not an employee and
other nonsense.
45. Then when I have appealed to their decision they
responded in the letter (see above) that “those related
to zero-tolerance violations, are not eligible for appeal.”

App. 35
25. I am affected for those unfair business practices
described above used by Defendant to deactivate my
account because their excuses are lies and false accu­
sations. And I believe this affects me and also many
consumers who are desperate for an income and they
accept Defendant offer of “great income and condi­
tions” and sign contracts to work for Uber Technologies
Inc.
26. ‘This prong of California Business & Professions
Code § 17200 is clear and ultimately, “an ‘unfair’ busi­
ness practice occurs when that practice ‘offends an es­
tablished public policy or when the practice is immoral,
unethical, oppressive, unscrupulous or substantially
injurious to consumers.’” (Davis v. Ford Motor Credit
Co. LLC, (2009) 179 Cal.App.4th 581, 595).
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for relief as follows:
1. For a declaration that Defendants’ actions, policies,
and practices as alleged herein are unlawful;
2.

For reinstatement;

3. For loss of income and all other compensation by
reason of Defendants’ unlawful actions, in an amount
to be proven at trial;
4. For compensatory damages for Plaintiffs’ emo­
tional pain and suffering, in an amount to be proven at
trial;

App. 36
5. For punitive damages in an amount to be deter­
mined at trial;
6.

For liquidated damages;

7. For interest on loss income, compensation, and
damages, including pre- and post-judgment interest
and an upward adjustment for inflation;
8. For an order enjoining Defendants from engaging
in the unlawful acts complained of herein;
9. For reasonable attorneys’ fees and costs of suit pur­
suant to 42 U.S.C. § 2000e-5(k), and other laws; and
10. For such other and further relief as this Court
deems just and proper.
8/26/2019
/s/Jorge Mendoza
Jorge Mendoza
In pro Per
DEMAND FOR JURY TRIAL
Plaintiffs demand a jury trial on all causes of action
and claims to which they have a right to a jury trial.
8/26/2019
/s/ Jorge Mendoza
Jorge Mendoza
In pro Per

